<html>
<title> - EGYPT TWO YEARS AFTER MORSI (PART I)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                  EGYPT TWO YEARS AFTER MORSI (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

                           Serial No. 114-36

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-688PDF                  WASHINGTON : 2015                       
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Eric Trager, Ph.D., Esther K. Wagner fellow, The Washington 
  Institute for Near East Policy.................................     7
Mr. Samuel Tadros, senior fellow, Hudson Institute...............    13
Nancy Okail, Ph.D., executive director, Tahrir Institute for 
  Middle East Policy.............................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Eric Trager, Ph.D.: Prepared statement...........................    10
Mr. Samuel Tadros: Prepared statement............................    15
Nancy Okail, Ph.D.: Prepared statement...........................    22

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    54


                  EGYPT TWO YEARS AFTER MORSI (PART I)

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Mr. Deutch from 
Florida for 5 minutes each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute. 
We will then hear from our witnesses and your prepared 
statements, without objection, will be made a part of the 
record. And members may have 5 days to insert statements and 
questions for the record, subject to the length limitation in 
the rules.
    And the Chair now recognizes herself for 5 minutes.
    Egypt has always been of central importance to the Middle 
East and the region's stability. It has also been a strategic 
interest for the United States, our policy objectives in the 
region, and our national security. The Suez Canal remains an 
all-important waterway that serves as a strategic asset for 
global trade and, just as importantly, the avenue which U.S. 
warships can easily traverse between the Mediterranean and the 
Persian Gulf.
    Over the past 4 years, we have certainly seen Egypt undergo 
drastic changes. As policymakers, we face one of the more 
difficult challenges in Egypt, and today's hearing is entitled 
Egypt: Two Years After Morsi, to examine the ever-changing 
dynamics on the ground of that country.
    Since the 2011 revolution, the change we had hoped to see 
for Egypt has been slow to come, to say the least. For many of 
us, myself included, we believe that human rights is a top 
priority that must be taken into account as we formulate our 
foreign policy objective. We want to see people living in free 
democratic and open societies where everyone can practice, 
without fear, their religion and where everyone is treated 
equally and fairly.
    In March of this year, an Egyptian court ruled that 
parliamentary elections had to be postponed, marking a major 
setback in Egypt's path to democracy. The authorities in Egypt 
and different branches of government must work together to 
ensure that the elections are scheduled as quickly as possible 
and in accordance with Egyptian law.
    It is important to note that elections for the sake of 
elections are not the only requirement for a democracy. A 
government must also govern democratically and respect the 
rights of its citizens. But we also understand that there can 
be no economic prosperity and no political stability without 
safety and security. And right now Egypt faces threats from the 
Sinai and along its border with Libya, and Cairo plays an 
important role as a counterbalance to the Iranian regime's 
hegemonic ambitions in the region.
    Egypt has taken a very active role in the Sinai, which for 
years has been ignored by Cairo, and is confronting the radical 
terror groups, some affiliated with ISIL. Egypt has long been a 
vital--Egypt has also been vital in cutting off and destroying 
the tunnels in Gaza used by Hamas and has been working closely 
with Israel to combat their shared threats.
    Earlier this year, the administration decided to resume 
weapons transfers to Egypt to help Cairo counter some of these 
threats. In 2013, Mr. Connolly and I commissioned a three-phase 
report from the Government Accountability Office to assess our 
foreign assistance to Egypt. The GAO is currently conducting 
this third phase, which will assess the security-related 
assistance, and the timing could not be more important as we 
resume these weapons sales.
    It is in our national security interest to see that these 
terror threats are eliminated and that Egypt remains a 
strategic ally and continues to have a good working 
relationship with Israel.
    Recently, Egypt has taken moves that signal that it is 
willing to move away from the U.S. toward a closer relationship 
with Russia. Russia has agreed to build a nuclear powerplant in 
Egypt, and the two have increased trade dramatically over the 
past year, and Putin has vowed to increase Russian weapons 
sales to Egypt.
    We cannot afford to allow Putin to undermine our ties with 
Egypt. It would be a serious blow to our national security 
interests. But as friends, it is also important that we take 
issue with Cairo's lack of progress on the domestic front. I 
still remain deeply concerned over the fate of 43 NGO workers, 
many of whom are American citizens who were convicted in 
absentia in a sham politically motivated trial.
    It would be a simple but important gesture for Sisi to 
pardon these individuals and signal that he is willing to move 
Egypt forward in a positive direction and could improve the 
U.S.-Egypt bilateral relationship.
    We should also look to reexamine the controversial laws 
against civil society, like the NGO law and the protest law. As 
much as the Egyptian people appreciate safety, security, and 
economic growth after the recent instability, they are also 
seeking far-reaching changes to the political process and the 
people's relationship with the state.
    President Sisi should seize this opportunity to move 
forward on long-needed democratic reforms, and the U.S. can 
play an important role in that effort. What it boils down to is 
finding the right balance between security and democracy, and 
the United States must ensure that we leverage our assistance 
to promote both simultaneously.
    With that, I am pleased to yield to the ranking member of 
our subcommittee, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. This hearing was 
intended to give members of this subcommittee the opportunity 
to take a broad look at the issues affecting Egypt today and 
the U.S.-Egypt relationship.
    I would like to take a moment to thank the chairman and my 
colleague, Mr. Connolly, who have been extremely focused on 
bringing justice to those 43 NGO workers who have still not 
been pardoned, including our witness here today, Dr. Okail. We 
must continue to press for this justice.
    Since the overthrow of Mubarak, there have been differing 
opinions on Capitol Hill as to how we should approach Egypt. 
But I think we all agree that Egypt plays a critical role in a 
very volatile region, and it is, and should continue to be, an 
important partner of the United States.
    We want to see Egypt succeed economically, and we want to 
see long-term stability and safety. In 2011, the people of 
Egypt bravely took to the streets to seek freedoms and rights 
long denied under the autocratic rule of Mubarak. We were under 
no illusions then that this transition would be easy. We could 
not then, and we cannot now, expect Egyptian democracy to look 
like ours overnight.
    The subsequent election of Mohamed Morsi in 2012 was 
significant, but it was Morsi's government who chose to jam 
through a new constitution with exceptional executive 
authority. It was Morsi's government that failed to make tough 
economic choices, like reducing government subsidies to meet 
IMF requirements that would put the country back on a path to 
prosperity. And it was Morsi's government who restricted the 
political space, cutting out those who sought to bring real 
democratic values to Egypt.
    So, in the summer of 2013, the people of Egypt again took 
to the streets to protest the barely year-old government, 
setting in motion the rise of the well-known military commander 
General al-Sisi. After another year of transition and interim 
government, the country held a second presidential election in 
2 years, electing the long respected general.
    For many, the election of President Sisi represented a 
return to normalcy. The Sisi government seemed to understand 
the need to return economic investment to Egypt and to 
strengthen the country's regional ties. The Gulf States infused 
Egypt with billions of dollars, with hopes of cementing the new 
government as a stabilizing force.
    A recent IMF review found that the Egyptian economy has 
begun to grow, and I was pleased to see the successful results 
of the economic investment confidence in March, which yielded 
some $60 billion in investment pledges. I urge the government 
to continue to take the tough steps needed to restore Egypt's 
financial stability and to bring relief to the people.
    Many of us here in Washington have also welcomed President 
Sisi's commitment to security issues. The government has faced 
a daunting challenge of policing the Sinai, which had become 
virtually lawless in the years after Mubarak. President Sisi 
made clear that he would continue close cooperation with 
Israel's military to prevent terror groups from exploiting this 
region. These efforts have come at great cost to the Egyptian 
military, and we are grateful for them.
    President Sisi has been committed to stopping Hamas from 
building and using terror tunnels to smuggle weapons into Gaza. 
The government has destroyed hundreds of tunnels, and in a 
speech last week President Sisi estimated his forces have 
destroyed 80 percent of these tunnels.
    Egypt is also facing great challenges on its borders with 
Sudan and Libya, as these countries become havens for terror 
training and weapons transit. We all mourn the victims of the 
gruesome attack on Egyptian Christians by ISIS affiliates in 
Libya, and I, too, am greatly concerned about Libya's potential 
to descend into greater chaos, but military action could 
potentially provoke even greater internal instability.
    Nevertheless, I agree with our Egyptian partners that the 
international community must play a role in getting Libya back 
on track, and I appreciate Egypt's close cooperation with its 
neighbors as they seek to address regional threats as a 
regional bloc. I believe the United States must continue to 
support Egypt, and I support continued assistance.
    But I am pleased to see our administration moving forward 
with a rebalance of our aid relationship that will allow Egypt 
to better address the most pressing threats and continue to 
cooperate with the U.S. in significant areas like 
counterterrorism. But like many friends of Egypt, I am 
concerned about the erosion of civil society and human rights 
in the name of security.
    Regardless of who sits in power, the United States should 
be delivering the same message to every government leader. And 
the message is clear: Human rights matter. I am concerned that 
too many restrictions have been placed on free expression. I am 
concerned about the arrests of journalists and about religious 
freedom, and I am concerned about laws that restrict the work 
of civil society actors or prevent any form of peaceful 
assembly.
    There must be a way to balance necessary security measures 
while protecting and enhancing the basic freedoms of the people 
of Egypt. This includes fostering good governance, rule of law, 
and routing out corruption and accountability for security 
services and government actors. And I have to say I was 
particularly dismayed this week to see media reports of rampant 
sexual abuse by policy and security services.
    I am also concerned about the impact of mass arrests and 
the handing down of mass death sentences. I hope our witnesses 
can speak to the message that this sends to society.
    And I also hope to hear from our witnesses their thoughts 
on the death sentence handed down on Monday to Morsi and how it 
has been received by the Egyptian people. As I have said, I 
believe in a strong Egypt and a strong U.S.-Egypt partnership. 
I want to see Egypt move forward on a path to stability and 
democracy, but even the closest of friends must be able to 
share and work through concerns.
    Today, I look to our witnesses to help us understand how we 
can balance and strengthen this relationship and ensure a 
successful future for all of the people of Egypt. And I yield 
back.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    I am now pleased to yield to other members for their 
opening statements. Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much for holding this 
hearing today. What happens in Egypt will determine the future 
not only of the Middle East but of the world, and we need to 
understand that. If Egypt falls under the control of the 
radical Islamic forces that now threaten that region, what we 
will have is the Gulf countries one by one will fall like 
leaves from a tree as the whole dynamic of that region will 
change.
    Radical Islam will then thrust itself into Central Asia, 
and within a short time we will have a monstrous threat to 
Western civilization, a historic change, C change, that could 
for many years turn--put us into a situation of danger and a 
dark future. There is only person and one regime and one 
government that stands in the way of that, and that is 
President al-Sisi of Egypt. We owe him and the people of Egypt 
our utmost support to prevent this horrible scenario for the 
rest of the world and the rest of that region.
    Thank you very much, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. Timely hearing and 
glad we were able to collaborate on a report in terms of the 
status of U.S. aid. The fact of the matter is, a coup occurred 
in Egypt, and the United States Government has yet formally to 
acknowledge that because of the consequences under the law.
    The military alliance with Egypt is a very important one, 
and I understand putting a certain primacy on that, but we have 
paid a price for it. So have the Egyptian people, with respect 
to rule of law, with respect to civic engagement, with respect 
to the need to create political space.
    As the current Egyptian government moves forward, hopefully 
we can make progress in all of these areas. If we don't, the 
crackdown that has occurred is going to lead to a backlash that 
will lead us we don't know where, but certainly we won't like 
it, and it probably will have consequences far beyond the 
current consequences of the military government.
    So I am looking forward to hearing the testimony today and 
where we are in terms of these areas with the current Egyptian 
government.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chairman. Thank you each for 
your testimony here today. We look forward to hearing it. I 
apologize, I am going to have to step out, back and forth, but 
we are monitoring this. I think it is critical that we are here 
today making great progress.
    Ambassador Tawfik is a good friend here, and I consider him 
a personal friend. In both the good and the bad times we have 
talked about the progress that is being made in Egypt. It is 
imperative that the American people know that we stand by the 
Egyptians wanting to govern Egypt, and it is not America 
wanting to impose its values on Egypt, but it is also critical 
that Egypt stands so strong in a very tough neighborhood to 
really add that stability.
    And so I look forward to hearing your testimony, look 
forward to working with the Egyptian people in bringing not 
only the rule of law back front and center but certainly 
investments from the United States to continue to flow back to 
Egypt.
    Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Meadows.
    Mr. Cicilline.
    Mr Cicilline. Thank you, Chairman and Ranking Member, for 
calling this very timely hearing on Egypt after Morsi. And 
thank you to our witnesses for being here today.
    My view is that the post-Morsi description only gets at 
part of the equation in Egypt. The Egyptian people have 
experienced an incredible amount of disruption, chaos, and 
change over the past 4 years. They are living in a post-
Mubarak, post-Revolutionary, and post-Morsi era. And today they 
are living under a regime that is perhaps most aptly described 
as Mubarak 2.0, turning to oppression in the name of security.
    However, there are some significant differences between the 
landscape now and Egypt under Mubarak. Waves of unrest have 
left the Middle East in utter chaos, have increased terrorist 
attacks and flow of refugees in Egypt. The United States has 
watched as two successive governments were toppled and is now 
reevaluating some of its longstanding policies toward the 
Egyptian government.
    But most importantly the Egyptian people have seen what 
they can do. They have experienced what they can achieve when 
they stand together in support of human rights and democratic 
freedoms against a tyrannical regime. And I think the question 
we need to ask is whether the Egyptian people who have won and 
lost so much over the past 4 years are willing to live under a 
regime that resorts to the same old tactics of intimidation, 
repression, and violence against their own people in the name 
of security.
    I think ultimately they are not, and that our policies 
toward Egypt need to reflect not just a security relationship, 
which is vitally important, but also the reality that the model 
of supporting an autocratic regime is inherently unstable in 
the long term.
    We absolutely must push the al-Sisi regime to enact 
democratic reforms and respectful fundamental human rights, and 
I fear that Egypt will find itself once again in the midst of 
volatile leadership change if we do not.
    Thank you to the witnesses for being here today, and I look 
forward to your testimony.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Trott.
    Mr. Trott. I want to thank the chairwoman and Ranking 
Member for holding this timely and critical hearing. And to the 
witnesses, thank you for taking your time to share your insight 
on the state of Egypt.
    I am from southeast Michigan, and I am proud to represent a 
large and vibrant Coptic community. It is a church with a long 
history, but it often seems that their interests and concerns 
since the 2011 uprising have gone unnoticed, if not completely 
ignored. While the Copts have been largely in peril since St. 
Mark brought Christianity to Egypt over 2,000 years ago, the 
2011 revolution brought renewed hopes of freedom, tolerance, 
and more prominent participation in public life.
    As we have seen through various governments that have each 
had control over Egypt since Mubarak's downfall, the Copts 
continue to be marginalized or used as a political tool. 
Sectarian conflicts in rural areas often lead to government-
controlled reconciliation sessions, which tend to leave the 
victims with no justice and the defendant with no more than a 
slap on the wrist.
    Under Morsi's regime, the Copts were subject to blatant 
sectarian rhetoric, inaction by state security, and even an 
attack by state security forces on the Coptic Cathedral. 
Subsequently, after Morsi's overthrow, there was what only can 
be described as unprecedented coordinated attacks on numerous 
Coptic Christian institutions. In what could only be viewed as 
a series of positive developments, President Sisi promised to 
repair and rebuild numerous Coptic churches and recently called 
for a religious revolution.
    Today, I look forward to hearing from my colleagues and the 
esteemed witnesses on how the Copts are faring under President 
Sisi and the current state of U.S.-Egypt relations.
    Thank you for your time today.
    Ms. Ros-Lehtinen. Excellent statements from all members, 
and now we would like to introduce our panelists.
    First, we welcome Dr. Eric Trager, who is currently the 
Esther K. Wagner fellow at The Washington Institute for Near 
East Policy. Dr. Trager is an expert on Egyptian politics and 
has taught at the University of Michigan--Go Blue--and at the 
University of Pennsylvania.
    Welcome, Dr. Trager.
    Second, we welcome Mr. Samuel Tadros, who is a senior 
fellow at the Hudson Institute's Center for Religious Freedom. 
Previously, he was a senior partner at the Egyptian Union of 
Liberal Youth and a lecturer at the School of Advanced 
International Studies at Johns Hopkins University.
    Welcome.
    And last, but certainly not least, we welcome Dr. Nancy 
Okail. Dr. Okail is the executive director of the Tahrir 
Institute for Middle East Policy and has 12 years' experience 
promoting democracy and development in the Middle East and 
North Africa. And, as we have heard, she is quite active in 
promoting peace and democracy in Egypt.
    Prior to joining the Tahrir Institute, she served as the 
director of the Egypt program at Freedom House and is one of 
the 43 defendants convicted and sentenced to prison in the 
political trial of the NGO workers in Egypt.
    So we welcome you as well, Doctor.
    And we will begin with you, Dr. Trager.

 STATEMENT OF ERIC TRAGER, PH.D., ESTHER K. WAGNER FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Trager. Madam Chair, Ranking Member Deutch, it is a 
privilege to be here again before this subcommittee and to sit 
on this very distinguished panel.
    Nearly 2 years ago, on June 30, 2013, unprecedented 
millions of protestors turned out across Egypt to demand 
President Mohamed Morsi's ouster. While Morsi, a Muslim 
Brotherhood leader, narrowly won the June 2012 presidential 
elections, he rapidly lost support. Morsi's assertion of total 
power through a November 2012 edict alienated a substantial 
cross-section of the Egyptian public, igniting demonstrations 
that continued for months.
    Then, as the economy plummeted and the tide of popular 
opinion shifted further against Morsi, Egypt's state 
institutions mutinied. As a result, the Egyptian state was on 
the brink of collapse. Meanwhile, rather than offering a 
political compromise, the Muslim Brotherhood mobilized 
thousands of its cadres to defend Morsi's presidency, and 
indicated that it would use violence if necessary.
    This is the context in which Egypt's military, led by then 
Defense Minister Abdul Fattah al-Sisi removed Morsi from power. 
Egypt was on the verge of severe civil strife, if not civil 
war, and many Egyptians feared that their country was headed 
the way of Syria or Libya, yet the manner of Morsi's ouster had 
significant consequences for Egypt's democratic prospects. By 
toppling Morsi, the Egyptian military locked itself in a ``kill 
or be killed'' struggle with the Brotherhood.
    The generals believe that they must destroy the Brotherhood 
or risk the Brotherhood remobilizing and seeking vengeance. And 
this fear is hardly theoretical; the Brotherhood openly calls 
for President Sisi's death; and it released a statement in 
January calling for jihad and martyrdom in fighting the regime.
    As a result, the post-Morsi period is perhaps the most 
brutal in Egypt's contemporary history. Over 2,500 people have 
been killed, and over 16,000 have been detained. These 
developments are quite dispiriting for those who hope that the 
Arab Springs represented the dawn of a more democratic era in 
the Arab world.
    But at the same time, Washington should be realistic. It 
cannot influence Egypt in a more democratic direction, so long 
as the government and the Muslim Brotherhood are locked in an 
existential struggle with each other.
    To be sure, the administration has tried to influence 
Egypt's political trajectory. In October 2013, the 
administration withheld most of the $1.3 billion in annual 
military aid to Egypt ``pending credible progress toward an 
inclusive, democratically elected civilian government.'' This 
was a lose-lose proposition. Withholding military aid had no 
impact on Egypt's authoritarianism. And at the same time, it 
soured the strategic relationship between Washington and Cairo 
in ways that have been mentioned earlier today.
    For this reason, the administration reversed its policy in 
March and resumed the aid. It is not in Washington's interest 
to have tense relations with Cairo. After all, Egypt is an 
important strategic partner. It coordinates with Washington a 
wide range of regional activities and has maintained a peace 
treaty with Israel since 1979. Washington relies on Egypt to 
grant preferred access to the Suez Canal and overflight rights 
to equip U.S. military bases in the Persian Gulf, and to 
support the current efforts against ISIS.
    President Sisi is also far more aligned with U.S. interest 
than Morsi. First, Egypt is once again a strategic partner 
against Iran. Whereas Morsi was the first Egyptian President to 
visit Tehran since 1979, President Sisi has deployed the 
Egyptian Navy against the Iranian-backed Houthis in Yemen and 
expelled the Iranian Ambassador.
    As the administration seeks a nuclear arrangement with 
Iran, strengthening the U.S.-Egypt relationship can help 
reassure Washington's allies in the Persian Gulf.
    Second, Egypt is now aggressively battling jihadists in the 
Sinai. After refusing to act for many years, the Egyptian 
military launched a major operation in September 2013 against 
the jihadists, some of whom now affiliate with ISIS.
    Third, Egypt's relationship with Israel has never been 
stronger. Whereas, Morsi refused to establish a channel between 
his presidential office and the Israeli government, President 
Sisi communicates openly and directly with his Israeli 
counterpart. There is also unprecedented Egyptian-Israeli 
coordination on the Sinai.
    Fourth, Egypt is now constraining rather than aiding Hamas, 
which is a U.S. designated terrorist organization. Indeed, 
whereas Morsi welcomed Hamas officials to the Presidential 
Palace in Cairo, the Sisi government has shut down Hamas' Cairo 
suburban headquarters.
    In closing, the proper policy toward Egypt is for 
Washington to cooperate with Cairo on regional strategy but not 
condone its repressiveness. If Washington doesn't draw this 
distinction, if it instead conditions its relationship with 
Cairo on its progress toward democracy, the strategic 
relationship will suffer without any positive impact on Egypt's 
domestic politics.
    Thank you for listening.
    [The prepared statement of Mr. Trager follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Tadros.

STATEMENT OF MR. SAMUEL TADROS, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Tadros. Madam Chairman, Ranking Member Deutch, 
distinguished members of the committee, thank you for holding 
this important hearing and for inviting me to testify today.
    For the past 4\1/2\ years, and after decades of political 
stagnation, the foundations of the political order in Egypt 
were shaken to their core as the country's citizens struggled 
with questions of democracy, the rule of law, and the country's 
identity.
    In June 2013, following popular protests, the military 
removed President Morsi from power, promising the Egyptian 
people not only to bring about stability and security but also 
equal citizenship and prosperity. Those hopes are today on the 
shoulder of President Sisi following his elections.
    While Egypt faces numerous challenges--security, economic, 
and political--I will limit--or I will focus in my testimony on 
religious freedom questions on the rule of law. I would be 
happy to address other aspects of Egypt's challenges in the 
Q&A.
    On the 26 of March 2015, a mob gathered in the village of 
El Galaa in Minya governorate and began attacking Christian 
homes and shops. The mob was incensed that Christians had 
received a permit to build a church in the village. Instead of 
protecting the Christians from that attack, the security forces 
allowed the attack to take place and, after the attack was 
concluded, held a reconciliation session between the elders of 
both communities to see how the situation can be calmed.
    The result was a number of demands by the mob. The church 
that was to be built would have no dome, no cross, no tower, no 
bell, and its entrance was to be on a side street, i.e. it 
should have no outer manifestation of Christianity. The 
security forces forced Copts to accept those demands in order 
for the church to be built, despite Copts having the necessary 
permits for their church.
    The mob then continued its attack, demanding further that 
the Copts who had spread news of the attack in the local and 
international press would publish an apology for those 
attacking them for tarnishing the image of the village Muslim 
residents. Again, those attacks went unpunished, with the 
regime arresting an equal number from those attacked and 
attacking in order to hold the reconciliation session, again to 
force reconciliation between them without implementation of the 
rule of law.
    Until today this church has not been built. This is 
unfortunately not an isolated incident. Similar incidents have 
taken place in the village of Al Our, which represents where 13 
of those Copts that were beheaded by ISIS in Libya come from. 
While President Sisi promised to build a church in that 
village, after protests by the residents in that village the 
location of that church was to be moved to the outskirts of the 
village instead of inside.
    Similarly, we have seen the continuation of blasphemy 
accusations and trials under President Sisi. Those have 
included a number of Christians, Shiites that have been 
arrested for simply praying, or for the possession of Shiite 
books. That is considered a crime that has led to 6 months for 
a Shiite person in prison.
    Similarly, atheists have received sentences from 1 to 3 
years for simply posting their views and their beliefs on 
Facebook. Despite the Egyptian government undertaking a number 
of symbolic steps toward religious freedom, including President 
Sisi's call for a religious revolution, and his visit to the 
Coptic Cathedral, it has failed to implement the rule of law, 
protect the country's most vulnerable citizens from those 
attacks taking place.
    The basis of the Egyptian-American relationship has been, 
since 1974 following former Secretary of State Henry 
Kissinger's visit, that Egypt would become a regional player in 
the sight of the United States, that it would play a leading 
role in the peace process, in leading the whole region to peace 
with Israel, and to stability and prosperity.
    For the past 30 years, that relationship has held. Egypt, 
despite disagreements with the United States, plays an 
important role in the peace process, in the defeat of Saddam's 
invasion of Kuwait, and in a host of other issues. Yet the 
Egypt of today is no longer the Egypt of the past. Egypt is no 
longer a regional player that can lead the region to anything, 
but instead is a play field itself, with a host of 
international, local, and regional powers competing for the 
country's future trajectory.
    The United States needs to base its relationship with Egypt 
not on the dreams of an Egypt that no longer exists, but 
instead on the reality that no one wants an Egypt that looks 
like Somalia, no one wants a Somalia on the Nile, no one wants 
a Libya bordering Israel, and no one wants a Syria in control 
of the Suez Canal.
    Thank you.
    [The prepared statement of Mr. Tadros follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                             ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Dr. Okail.

  STATEMENT OF NANCY OKAIL, PH.D., EXECUTIVE DIRECTOR, TAHRIR 
                INSTITUTE FOR MIDDLE EAST POLICY

    Ms. Okail. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and members of the subcommittee, thank you for holding this 
timely hearing. It is an honor to be here.
    Over the past 4 years, Egypt has experienced several waves 
of instability that have prevented tangible reforms. 
Unfortunately, in the minds of many, the situation reinforced a 
false dichotomy between security and economic stability on one 
hand and democracy and human rights on the other hand.
    This also enhanced the view that foreign policy toward 
Egypt can be viewed in isolation from its domestic affairs. I 
would like to take this opportunity to clarify the current 
situation in Egypt and how the U.S. can provide effective 
support to address it.
    We must acknowledge the necessity of the recent U.S. 
decision to overhaul its aid relationship with Egypt in a way 
that more appropriately focuses on security and terrorism. 
However, any assistance provided for these purposes must have 
rights and good governance as its cornerstone. Otherwise, 
policies are neither effective nor sustainable.
    In 2012, Egypt saw 41 attacks of terror. This year alone, 
the number has already surpassed 500 attacks. These acts target 
police, judges, businesses, and increasingly civilians. Some of 
these acts occur because of domestic motivations, and others 
are linked to transnational extremism.
    In November 2014, a domestic terror group in Sinai, Ansar 
Bayt al-Maqdis, was welcomed by Islamic State leader Abu Bakr 
al-Baghdadi as a new province in the so-called Islamic State. 
In the Western desert region, Egypt's porous border with Libya 
has caused significant security problems for the country, 
allowing free flows of arms and in some cases militants in and 
out of Egypt.
    Terror groups continue to successfully expand online, 
spreading their propaganda and recruiting new members. Many 
Egyptians have traveled to fight under the Islamic State than 
are in Iraq, Syria, and Libya, and it is unknown how many have 
returned home.
    Evidently, terror threats are on the rise and require all 
supports from Egypt's partners. However, the current approach 
of sweeping arrests, large-scale military campaigns in Sinai, 
and restrictions on rights and freedom, will not be effective 
in identifying the actual threats. Physical and cyber threats 
should not prompt policies of increased surveillance and 
restrictions of freedom of expression, but, rather, require 
more open and alternative secular narratives to those of the 
extremist groups.
    Stability cannot occur without accountability and security 
sector reform. Pervasive evidence of torture, expedited trials, 
and mass sentencing impede the ability of effective 
investigation and prosecute legitimate terrorism. Egypt should 
repeal repressive laws and encourage legal training that will 
fairly consider the rights of all to due process.
    Currently, the political space is highly restricted. Egypt 
has been functioning for long without an elected legislature, 
and still no date has yet been set for the parliamentary 
elections. If the political and public spheres remain closed, 
people will have no channel for peaceful engagement, and those 
with grievances will have no recourse, or only violent 
resource, to communicate their messages.
    The current controversial demonstration law severely 
restricts Egypt's rights to peaceful assembly. Among those who 
have been arrested under the law are prominent activists and 
peaceful human rights defenders, including Alaa Abdel Fattah, 
Ahmed Maher Douma, Yara Sallam, Sanaa Seif. All those committed 
to transparency and democracy and detained under these laws 
must be released.
    Egyptian civil society remains under threat. As you may 
know, I and 42 and other received sentences of 1 to 5 years in 
prison for our work promoting democracy. Since this time 
proposed drafts for the NGO law have become more restrictive, 
many Egyptians are now in the same position as I am, living in 
exile, separated from our families, and unable to go back to 
our country without fear of serving years in prison. Such 
intimidation must stop, and the laws must be amended to civil 
society actors to engage in their important work and receive 
necessary support from international counterparts.
    By recognizing that there can be no security without 
rights, and no safety without democratic development, the 
United States has a unique opportunity to support Egypt in 
restoring its stability in an effective and sustainable way. 
Specific recommendations for Congress could be found in my 
written testimony.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Ms. Okail follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much. Thank you to all of 
our panelists for their great testimony.
    Egypt is strategically important for the stability of the 
region, for helping to contain Iran's push for regional 
dominance, and for helping counter the terror threats that are 
coming from Sinai and Libya.
    However, many Egyptians have viewed the United States 
negatively since they see the Obama administration as having 
supported Morsi and the Muslim Brotherhood. During the 1\1/2\ 
years when the administration remained on the fence about what 
to do with its Egypt policy, Cairo received billions from its 
Gulf allies and signed massive arms deals with Russia and with 
France.
    So, Dr. Trager, what does this mean for our relationship 
and our leverage with Cairo? What does it mean for our long-
term national security interests if Egypt and others move away 
from the United States toward Russia and toward other 
countries? And as we have heard, terror attacks have increased 
rapidly in Egypt in the past 2 years. To what do you attribute 
this rise? And how can Cairo improve its counterterrorism 
operations? And who are the groups? What are their goals?
    Mr. Trager. So our leverage with Cairo, as it pertains to 
shaping their domestic politics I think is very, very limited 
due to the domestic struggle within that country, the ``kill or 
be killed'' dynamic that has really defined the politics of the 
post-Morsi era.
    And when we tried to shape that by withholding military aid 
or much of the military aid, as you said, you know, Egypt 
gravitated toward Russia, signed a preliminary arms deal with 
Russia, $3.5 billion. It also signed, I believe, a $5.4 billion 
deal with France. And that suggests that, you know, this idea 
within Washington that Egypt won't have other options, needs 
us, and will, therefore, respond to U.S. pressure as it 
pertains to its domestic political situation, just isn't true.
    And I think we should learn from the experience of the 
previous 2 years in which we tried to use the military aid as a 
stick, and, you know, Egypt simply went a different direction. 
And for sure if Egypt gravitates more toward Russia, or 
gravitates toward other--you know, other powers for its 
military aid, that will make it even more difficult for the 
United States to shape what it has to shape, which is Egypt's 
foreign relations and Egypt's external policies.
    Now, the rise in terrorism within Egypt, especially since 
Morsi's ouster, I think is attributable to many different 
things. First of all, Morsi took a pretty light hand in the 
Sinai, and the theory of the Muslim Brotherhood was that by 
winning power through elections and working to implement the 
sharia, which is the Brotherhood's long-term goal, they would 
convince Sinai jihadis to lay down their arms and adopt the 
Muslim Brotherhood's path to power.
    And in former Secretary of State Hillary Clinton's memoirs, 
she recounts a conversation with President Morsi in which he 
said that basically there would be no Sinai attacks under an 
Islamist president, which clearly was not true. So part of it 
is the light hand that Morsi took in the Sinai, and the fact 
that after Morsi was ousted the jihadis feared the return of 
the security state to Sinai, and then there was an uptick in 
violence that spread west across the Suez Canal, with major 
attacks in some of the major Egyptian cities, particularly a 
massive attack in Mansura, I believe in December 2013.
    The other aspect of the recent attacks seems to be the role 
of Muslim Brotherhood youths in slowly gravitating toward a 
more aggressive posture vis-a-vis the regime. These tend to not 
be the mass-scale attacks. They tend to be IED attacks, attacks 
on infrastructure, attacks on police stations.
    It does not seem to me that the Brotherhood has made that 
decision to attack civilians, and there is actually a very 
interesting paper written by the former vice chair of the 
Muslim Brotherhood's political party to this effect that I 
would be happy to share with the committee.
    Now, I need to hedge a little bit and say that we don't 
have iron-clad proof that this is the Muslim Brotherhood, or 
these are Muslim Brothers. The evidence is circumstantial, but 
is reflected in Facebook postings and in various interviews 
that I have had since Morsi's ouster. And the unfortunate thing 
is, if it is the case, as I frankly believe it is, that the 
Muslim Brotherhood is involved in these sort of low profile 
attacks, that is going to be very hard for the current regime 
to reverse in sort of a negotiated way, because the conflict 
between the current government and the Brotherhood is 
existential. There is really no room for compromise between the 
two. So, you know, my expectation is that Egypt is going to 
have a very difficult path moving forward.
    And just one final point that the ultimate effect of these 
attacks, and the ultimate effect of the declining security 
situation, seems to reinforce support for Sisi. And this 
repressiveness that we have been discussing today, you know, 
has some significant societal support as a result of both the 
local context and the regional context.
    Thank you.
    Ms. Ros-Lehtinen. Thank you.
    And, Dr. Okail, as we know, Egypt has constitutional, 
international obligations to hold parliamentary elections, 
which you were talking about, and you pointed out they have 
been postponed, they have been delayed for too long now. And 
last month Sisi declared that these elections would not happen 
before Ramadan, which begins next month, so another delay.
    You point out that these elections could open the political 
space for all, but they are--and there are now some beginning 
steps of political actors who emerged after the 2011 
revolution, but they are running out of resources. What 
indications do we have now that there are political groups and 
players who can organize, who have the capability to not only 
win an election and form parties but to govern effectively and 
in a manner that would be free and fair and representative of 
all the needs of the Egyptian people?
    Ms. Okail. Thank you, Madam Chairman. I do believe that 
there are actually new players in the political field in Egypt. 
And there are several political parties that started to be, I 
mean, organized and shaped after the revolution. However, as 
you rightly point out, they are running out of resources, and 
they are being restricted.
    The elections would allow this opportunity of the people to 
be encouraged to actually engage in a real--I mean, channels 
into political participation. However, we must look at the 
overall environment. In order for these political parties to 
campaign freely, to actually voice their own agendas and their 
programs and their aspirations for Egypt, they have to have an 
ability to voice their demands through peaceful channels, like, 
for example, having a free media, which is currently suffering 
a lot of restrictions.
    At the same time, we should have also independent 
organizations that would monitor and oversee these processes, 
which is basically civil society organizations who are 
currently under restriction because of the current NGO law. And 
the draft that has been proposed for these organizations to 
function under a new law has been equally restrictive.
    In addition, there was also a new amendment in the penal 
code that would penalize and criminalize anyone who would 
receive funding from foreign sources that would--using language 
that is very loose and just threatens national security, 
without saying or identifying what would be actually determined 
and identified as a threat to national security.
    All of this put all the players, whether the political 
actors, the political parties as organized entities, and also 
analysts and media and civil society actors, under threat and 
in limbo, and acting under intimidation, which would not be 
conducive for real environment for an effective elections.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Deutch is recognized for his questions.
    Mr. Deutch. Thank you, Madam Chairman.
    I would throw this out to the panel. Mr. Tadros, you made 
yourself clear that you don't believe that at this point, if I 
understood you correctly, that Egypt can be a leader in the 
Arab world. To the contrary, I think is how you explained it.
    I would just like the panel to look out over the next year 
or 2 and tell us where you think things are going. We speak 
in--you know, we focus on different silos and security issues, 
on human rights issues and civil society. But they are all--
they all ultimately impact not just the people of Egypt, but 
they impact the ability of Egypt to be a leader in the Arab 
world. They impact the relationship between Egypt and the 
United States.
    So what will things look like a year or 2 out? And to what 
extent does there necessarily need to be progress on all of 
these areas for Egypt to be a leader in the Arab world, and do 
we need to see the same advances for the relationship between 
Egypt and the United States to be strengthened?
    Mr. Tadros. I am indeed making the case that the Egypt with 
which Dr. Kissinger forged a lasting relationship with the 
United States is no longer there. The Egypt that was ruled by 
President Anwar Sadat in 1974 when he first met with Dr. 
Kissinger was an Egypt that was the cultural leader of the Arab 
world, that its influence ranged from Morocco to Iraq. It could 
influence the decisions of the regimes there and lead the 
region into something.
    That is no longer the case. Egypt has deteriorated 
throughout the past 30 years dramatically on all fronts, 
whether--it is not only the political stagnation of the Mubarak 
regime, but it also declined in the role that it played in the 
regional affairs, surpassed by countries like Qatar and Saudi 
Arabia, now by the UAE. Others have come up and played that 
role in the region, leading it with various directions.
    The current situation in Egypt is an Egypt that is divided. 
It is divided along political lines. There is a fight for the 
soul of Egypt, and a country that is being torn apart between 
two groups is hardly one capable of projecting power or 
influence abroad.
    The Egyptian--oh, Egypt is today dependent on Gulf 
countries for economic support for feeding the Egyptian people 
themselves. It needs those countries' support. It follows Gulf 
policies in the situation in Yemen and others. It needs the UAE 
in order to be involved in this situation in Libya. It has no 
ties to Hamas or the one representative or one group within 
Palestine.
    Historically, the Egyptian regime has been able to play the 
role of peacemaker between Israel and between Hamas and other 
terrorist organizations in Gaza. Nowadays, that is no longer 
possible. Egypt is no longer able to be the peacemaker between 
them. So on all fronts, I think the ability of Egypt to project 
power abroad has decreased.
    Mr. Deutch. But, Dr. Trager, there is an argument to be 
made, isn't there, that in facing the regional security 
threats, Egypt is playing a more assertive role. How can--when 
Mr. Tadros talks about the fight for the soul of Egypt, how 
does the ``kill or be killed'' struggle that you describe 
influence all of the other decisionmaking? And can Egypt move--
does that ``kill or be killed'' struggle continue until there 
is a clear victor? Or have we already reached that point and we 
are seeing that in the actions that Egypt has been taking on 
regional security?
    Mr. Trager. Well, look, I mean, I think the ``kill or be 
killed'' struggle really refers to the domestic political 
situation. Sitting here 6,000 miles away, my sense, and perhaps 
your sense as well, is that it has been settled. I mean, you 
know, President Sisi has for the most part, and the government, 
vanquished the Muslim Brotherhood.
    But the fact that you have the rise in IED attacks, the 
fact that you have the Muslim Brotherhood's official language 
toward the regime becoming much more violent, talking about 
martyrdom and jihad, I think means that that struggle is going 
to continue. And it is going to be very hard to move or 
encourage the domestic politics to move in a more positive 
direction.
    Now, how that hinges on the regional level, it means that 
Egypt is going to be more aggressive, and President Sisi has 
spoken about this, against radical Islamic groups, particularly 
jihadis. The Egyptian role in Yemen, though, is slightly 
different. There Egypt is trying to protect Bab-el-Mandeb, 
which is the strait that leads to the Red Sea that leads to the 
Suez Canal. The Suez Canal is a major source of revenue for 
Egypt.
    So, you know, for now the Egyptian operation there is 
limited, and I suspect that Egypt will actually play a slightly 
more conservative role, certainly a more active role in the 
region than previous governments. But because of the--you know, 
but a more conservative role than we would expect. It is 
focusing primarily on strait access in Bab-el-Mandeb, and it is 
focusing on countering jihadis from Libya.
    I don't personally expect Egypt to send ground troops into 
Yemen. They may send, you know, to Saudi Arabia to protect the 
border, but I--you know, maybe I will be proven wrong here, but 
I don't think that we are going to see a significant Egyptian 
military role beyond those kind of more narrow interests.
    Mr. Deutch. Dr. Okail, I am out of time, but I hope as we 
go forward you will have a chance to talk about the extent to 
which Egypt will or will not be able to exert a greater role in 
the region while some of the domestic issues continue to be 
hashed out. But for now, I will yield back.
    Ms. Ros-Lehtinen. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. And, 
again, thank you for holding this hearing today and drawing our 
attention to a country and a struggle that is vital not only to 
that country but in the long run to the rest of that region and 
to the world and to the people of the United States.
    I believe it is just that historic an event that we are 
looking at that if we do not do what is right could lead to a 
historic catastrophe in the sense of the instability and the 
bloodshed that it could create on a global scale. Because if 
Egypt--as I mentioned earlier, if Egypt falls to radical Islam, 
the other countries in the Gulf, with their enormous wealth and 
power, would be transferred to a radical Islamic goal, which 
would be a catastrophe for our country and for the Western 
civilization and for the people of that region.
    So I say Egypt is now playing a positive role, even though 
it is less of a role, in that region because it is taking care 
of their business at home. Are we being as supportive as we 
should be to President al-Sisi in his efforts to, number one, 
create a stable Egypt, and, number two, make sure that Egypt 
has the weapons and the equipment necessary to play a positive 
role in that region?
    Now, could I have a short answer from each of the witnesses 
on that?
    Mr. Trager. Well, thank you very much. I mean, I think that 
we could be doing more in terms of, you know, expressing our 
partnership with Egypt on certain strategic issues. I think in 
terms of validating the domestic political trajectory that 
should be a bridge too far for us. You know, we have reasonable 
concerns about the political trajectory there, the repression. 
There are very reasonable concerns about whether that will, you 
know, actually help the situation.
    I do think we have a very limited ability to shape that, so 
I would urge Congress to urge the administration to move 
forward with the strategic dialogue with Egypt to get the aid 
and military-to-military relationship back on track.
    Mr. Rohrabacher. Let me note from that answer, President 
al-Sisi has not received the weapons that he was expected. He 
just recently obtained some helicopters from the United States 
and find out that they did not have the defensive measures on 
the helicopters that were necessary for them to be used to 
thwart a radical Islamic insurgency or some kind of an attack 
out in the Libyan end of their country.
    That is disgraceful on our part, Madam Chairman, to give 
weapons systems that they can't even use. It is a slap in his 
face. As well as the spare parts for the tanks that his country 
needs, if there is a problem in--especially out in the Libyan 
end of his country, this is outrageous.
    And the fact that the Russians have come in and given al-
Sisi some support, here is where I disagree with my colleagues, 
I think that is a good thing that the Russians are helping 
President al-Sisi, and I think that we should take that into 
consideration on how we judge Russia instead of considering it 
always the enemy of the United States.
    Sir, would you like to answer the first question about, are 
we playing the supportive role we should be?
    Mr. Tadros. Certainly. As the Congressman has mentioned, 
Egypt is important, not because it will play a regional role, 
but because the fate of Egypt should be a concern to the United 
States, a country of 19 million people, a country that borders 
Israel, that is in control of the Suez Canal. For all those 
reasons, the U.S. needs to be actively involved in investing in 
Egypt's future, making sure that Egypt does not fall to the 
same regional upheaval that has taken so many countries there.
    But this is not only limited to military investment in 
Egypt's future, bolstering its military capabilities against 
the security threat, but also investing in Egypt's development, 
in Egypt's other challenges, in Egypt's rule of law, in 
building Egyptian institutions that are representatives of 
their citizens, that are welcomed by their citizens, that is a 
venue for their citizens to bring about their concerns to their 
leadership in order for that country not to collapse the same 
way as other countries have.
    Unfortunately, the United States has not been doing that. 
For so long, the administration has been tied to this question 
of, was it a coup or was it not a coup? What do we do with the 
military aid? And has forgotten about the other aspects of the 
relationship, that it is not only about the military aid but 
about other things as well.
    Mr. Rohrabacher. Very good answer. Could we have a quick 
answer, Madam Chairman, with indulgence, could our last 
witness--have her comment on that?
    Ms. Okail. Thank you. I think one issue to clarify right 
here is that so far the conversation is limited to government-
to-government relationship. However, as President Obama 
mentioned in his speech after the Egyptian uprising and said, 
it is time to stand on the right side of history and side with 
the people. This has not translated into actual policies, 
because right now it is confined between military-to-military 
relationship, without actual engagement with the Egyptian 
people.
    And this is--Madam Chairman, answers your question about 
the reputation of the United States within the--and the 
sentiments of the Egyptian people because they did not actually 
feel that there is real engagement. And this can only happen 
and translate into actual policies when there are support and 
finances and resources that are channeled toward the civil 
society organizations that represent the people.
    The other point, just to say very briefly, that with the 
changing leadership in Egypt in terms of the personality of the 
president, there are beyond that inherent structural challenges 
for the Egyptian state itself. The institutions that actually 
suffered under Mubarak have not actually undergone real 
structural reforms, and I am speaking here about the police, 
the security sector, and the judiciary itself. And it has, as 
we have seen, the same even particular people who are drafting 
the laws under Mubarak are the same people who were drafting 
the laws under Morsi and until today, and this needs to change 
to actually lead to real structural change and development.
    Thank you.
    Mr. Rohrabacher. Thank you.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    Dr. Trager, I mentioned sort of three areas it seems to me 
we need to be concerned about with respect to Egypt. But 
backing up just a little bit, you indicated, and, as you may 
know, our State Department has said that the Muslim 
Brotherhood, led by Morsi, won a free and fair election.
    Now, if the United States is going to have credibility in 
the region in encouraging others to move toward a democratic 
form of government, our tacit support for military overthrow of 
a duly elected government, albeit one we felt was on the wrong 
track, and guilty of some serious missteps with respect to 
writing a constitution protecting minority rights, and the 
like, nonetheless, doesn't that sort of damage our credibility 
in the region as we try to encourage others to move in a 
democratic path?
    Mr. Trager. Thank you for your question. I would argue that 
the credibility of democracy in the region, unfortunately, 
doesn't rest on our statements and our policies. It, frankly, 
rests on the performance of those who are elected. And Morsi's 
failure in power, the fact that he used an election to grab 
more power through an edict, that he rammed through a very 
controversial Islamist constitution, that he failed 
economically, that the Muslim Brotherhood mobilized its cadres 
to attack protesters, that he tried to crack down on media, and 
if the country was really sliding into an abyss--and, frankly, 
still has many, many challenges--I would argue that all of 
those things significantly undermined, you know, the 
credibility of democracy within Egypt. And it is very hard for 
us to rescue that from there.
    And I say that, by the way, very sadly, but----
    Mr. Connolly. Would you cite the current military 
government, albeit elected, as the alternative? I mean, is that 
a paragon of democratic virtue in the region?
    Mr. Trager. I am certainly not arguing that it is.
    Mr. Connolly. Do you believe that the current government is 
committed to the rule of law?
    Mr. Trager. I think that there are major challenges 
regarding the rule of law. I think the current government is 
faced with significant institutional challenges, and the power 
struggle that has, frankly, defined Egypt's post-Mubarak 
trajectory since 2011 is still playing out, and we see that 
today in tensions between the presidency and the Interior 
Ministry and the power of the judiciary. I mean, this is still 
a regime that is defining itself.
    I agree with you very much that the trajectory is not 
democratic. All that I am arguing is our capacity to shape that 
is almost nonexistent.
    Mr. Connolly. Yes. One of the things I think we should have 
learned from the overthrow of the Shah of Iran is that when you 
don't allow the creation of political space, then you can't be 
surprised at the rise of an element we don't like, because--and 
in the case of Egypt, years of repression of the political 
space it seems to me made the Muslim Brotherhood the only 
alternative to the regime, and nothing in between particularly. 
And that is why they won the election.
    And it seems to me that the current military government, in 
going all out in this existential battle for survival you 
referred to, may unwittingly exacerbate the situation we are 
concerned about by not allowing political space. Even NGOs not 
allowed to function and being pilloried and persecuted for 
democratic expression of ideals.
    Your comment on that.
    Mr. Trager. Well, that is clearly, you know, very possible. 
And it is true that, look, we should be deeply concerned about 
Egypt's domestic trajectory, and we should be communicating 
that very, very clearly. I think that the Secretary of State 
made a huge mistake when he said that Egypt is on a transition 
toward democracy. That is just not accurate.
    But at the same time, I think we have to be conservative in 
what we can expect from Egypt under the current circumstances 
of a great deal of violence domestically, a deteriorating 
regional situation. And, moreover, we should acknowledge the 
fact of the past 4\1/2\ years, which is that political change 
comes from many different, you know, sources, but the ultimate 
decider, for lack of a better word, of that change is the 
military, and that has been for, you know, over 40 years our 
partner in Egypt.
    Mr. Connolly. If the chair would allow just Mr. Tadros or 
Dr. Okail to also respond to that.
    Mr. Tadros. I would be happy to. We certainly cannot 
influence--the United States cannot influence Egypt's 
relationship or the Egyptian regime's relationship with the 
Muslim Brotherhood. It can, however, influence other aspects 
that are not life and death issues through the Egyptian regime.
    So the fate of former President Morsi is one issue where we 
cannot comment on or affect, because simply President Sisi 
realizes that if the Brotherhood ever took power again, it is 
his life that will be there. He will be the one hanged.
    There are many other issues on the domestic front where the 
United States, partnering with Egypt, can influence these 
things to a better direction, whether it is talking building 
the rule of law, building state institutions, representative 
governments. We might not be able to force them to hold free 
and fair elections, but we can certainly train the judges 
better, we can help the police force deal with protests much 
better without killing protesters. There are many areas that 
can be worked on.
    Mr. Connolly. And, Dr. Okail, if you could briefly comment.
    Thank you, Madam Chairman.
    Ms. Okail. Yes, please. I just want to underscore that, 
again, most of the conversations focus on the physical 
interactions, I mean, security physically on the ground and 
limiting the ability of people to physically assemble and 
demonstrate, forgoing that during this year and age, and this 
time, that the internet plays a very important role, and this 
cannot be restricted as the ability of the security forces 
could do in the streets in shooting people dead.
    And we have seen also cases where, if the security is the 
prime objective that we want to achieve, we have seen cases, 
for example, that one of the defendants who was just sentenced 
to death, for example, he was an average, normal young Egyptian 
citizen, got radicalized by connection with some of those 
terror groups, traveled to Syria, got trained there, and came 
back and participated in an organization who are planning to 
conduct some terror attacks, in just less than 6 months.
    This is how quick and this is how volatile the situation 
can be. And this is just one example to give you, that if we 
just follow the security approach it will not really lead to 
stability or security. And that opening the space for more 
alternative narratives to those of the extremist groups, that 
would actually be the only answer for that to be defeated, both 
on the cyber battlefield and on the ground.
    Thank you.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Webber is recognized.
    Mr. Webber. The gentleman from Virginia always has such 
good questions. I could sit and listen to him all day, and, 
like a lot of you, I thought I was going to have to.
    Just a joke, Gerry. Just a joke.
    You all didn't respond to the gentleman from California's 
comments about him thinking that Russia being involved in 
helping Egypt was a good thing. Dr. Trager, how do you--what 
say you?
    Mr. Trager. I mean, I respectfully disagree that Russia 
strengthening its relationship with Egypt is a good thing. 
Russia clearly has a very different view of the region than the 
United States, particularly as it pertains to Iran, and I think 
that we should be very wary of the Russian-Egyptian 
relationship improving.
    We should remember, by the way, that the Egyptian military 
supplies are, according to estimates, 52 percent U.S.-made 
weapons. Most of the other weapons are Russian-made weapons 
from the era in which the Soviet Union funded Egypt. So Egypt 
can pivot to Russia in that sense. It can integrate Russian 
weapons, and I think that is something that we should be 
working very hard to prevent.
    Mr. Webber. Is it Tadros or----
    Mr. Tadros. Tadros, yes.
    Mr. Webber. Mr. Tadros, what say you?
    Mr. Tadros. Yes. I would second what Dr. Trager has said, 
both for the fact that a close alliance with Russia would have 
on Egypt's regional policies, on Iran, on Syria, on other 
matters, but also the possibility of a Russian model in Egypt 
is not something that anyone should be looking for.
    Mr. Webber. Dr. Okail?
    Ms. Okail. Yes. I completely agree with Mr. Tadros and Dr. 
Trager. I mean, having--losing the opportunity of the United 
States having this leverage over--pushing Egypt toward a 
direction that aligns with the principals of democracy and 
freedom that is like valued in the United States would be a 
better, an ideal position than having to side with Russia.
    Mr. Webber. Sure. I think it was you, Mr. Tadros, that said 
Egypt has no Palestinian relationship? Was that----
    Mr. Tadros. I said that in the past Egypt had played a 
role, whenever war would break between Hamas and the State of 
Israel, in brokering an agreement in exchanges of prisoners, in 
things like this.
    This relationship is no longer there as Egypt has 
dramatically cut its relations with Hamas, so it can no longer 
play this role of truce or organizer between the two.
    Mr. Webber. Thank you. I wanted you to clarify that.
    One of our questions was--suggested this popular satirist, 
Bassem Youssef, who is often referred to as the Jon Stewart of 
Egypt, having been the brunt of one of his satires--I don't 
know who that is--had his--anyway, this guy, Youssef, had his 
popular political satire show canceled.
    Now, according to reports, Mr. Youssef is saying that they 
made this decision to self-censor in an increasingly 
restrictive media environment. Is that accurate? Mr. Tadros?
    Mr. Tadros. I believe it is.
    Mr. Webber. As much as you know about it.
    Mr. Tadros. Yes, I believe it is. The Egyptian regime has 
had a very restrictive notion about what the press should and 
should not cover. They believe that the completely open press 
that existed following the Egyptian revolution is something 
that undermined national security and led to chaos, and, thus, 
they have created restrictions on freedom of the press of TV 
programs and others.
    Mr. Webber. Okay. Dr. Okail, did you say that Facebook was 
playing a role? And is it an increasing role?
    Ms. Okail. Well, definitely the internet, in general, is 
playing an important and effective role. However, yet, I mean, 
still, it is very limited. It doesn't affect the entire 
population, 90 million people. Most of them are living in 
poverty, and a lot has no access to the internet. And the 
mainstream media or the traditional media still play an 
important role.
    However, just a point about your earlier questions about 
media freedom. Another structural problem with the media is not 
just the political ability or authority to censor the media, 
but it is also the inability and the lack of resources for 
independent media to emerge. And that is a huge problem for 
many of the voices that needs a platform to democratically 
voice their----
    Mr. Webber. Let me real quickly to my last question. Is 
CAIR, C-A-I-R, Council on American-Islamic Relations, are they 
playing a role between the Brotherhood and Sisi? Any kind of 
role in that?
    Mr. Trager. I don't believe so. There is certainly no 
reports that I am aware of that----
    Mr. Webber. None of that you know of.
    Mr. Tadros. Yes. I don't believe that they are. They have 
been declared a terrorist organization, of course, by Egypt's 
ally, the United Arab Emirates. So I don't think the Egyptian 
regime would be open to any talk with them.
    Mr. Webber. Dr. Okail, any knowledge?
    Ms. Okail. I am not sure that it would be able to play a 
role.
    Mr. Webber. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Webber.
    Mr. Cicilline.
    Mr Cicilline. Thank you, Madam Chairman.
    Thank you to the panelists. I hope that we can all agree 
that U.S. policy toward Egypt over the past few decades has had 
some significant flaws. We propped up an unpopular repressive 
dictator who abused his people at the expense of his political 
cronies and watched on the sidelines as the Egyptian people 
finally rose up against his repressive regime.
    And as I listened to this testimony and I reviewed the 
materials that were submitted, I have become even more 
concerned that we are very quickly forgetting about this past 
and preparing to repeat history for the sake of stability, as 
we said, over these past many years.
    And my first question to the panel is whether there are any 
discernible differences between the current policies toward 
President al-Sisi's government and our previous policies toward 
the Mubarak regime? Have we learned anything? I understand we 
have restructured, as we say, our security assistance, but have 
we truly evaluated the mistakes of the past and adjusted our 
policies for the future?
    Mr. Trager. Thank you for your question. I would argue here 
that we are not propping up the current government of Egypt. 
That government emerged from a series of circumstances that are 
intrinsic to that country's domestic politics, namely the 
fallout from the Morsi era and strong popular support for the 
current type of regime.
    The second lesson that I think we should draw from the 
previous 4 years that you referenced doesn't necessarily 
pertain to the extent to which the U.S. should or should not, 
you know, support democracy or privilege the military 
relationship, but it should be an analytical lesson which is 
that the key player in Egypt has been and will likely remain 
the Egyptian military. And, in that sense, the United States 
has made a wise choice with its partnerships.
    Now, it is not an uncomplicated relationship. It is a 
relationship that we should be using to communicate our 
displeasure with Egypt's current trajectory, and we should in 
no way whitewash that trajectory. But, at the same time, that 
relationship is very important for U.S. strategy in the region.
    Mr Cicilline. Mr. Tadros or Dr. Okail?
    Mr. Tadros. I think there are differences. As Dr. Trager 
mentioned, the United States is not completely supportive of 
the Sisi regime, the same way that could be said of the earlier 
period of the Mubarak regime. When President Mubarak took over 
power in similar circumstances of an Islamist challenge 
existing following Sadat's assassination, there were no 
objections from the United States to any policies that Egypt 
was doing.
    The administration has highlighted a number of areas of 
disagreement with the regime and has been publicly expressing 
its displeasure with a variety of the regime's policies.
    Mr Cicilline. Dr. Okail?
    Ms. Okail. I agree with Mr. Tadros and Dr. Trager. But I 
think the main difference is the realization that right now, I 
mean, what was--with the situation under Mubarak is that the 
United States wanted to make sure that the stability continues 
and avoid the scary scenario of having the Islamists taking 
power.
    Right now, we are not having--we are not seeing policies 
that would avoid the repetition of this scenario because after 
the fall of Mubarak there was a vacuum where there are no 
secular political parties able to organize and run 
competitively in the elections against the Islamists.
    Right now, we don't have--we don't see signs of learning 
from this lesson where there are no support for having 
political parties organized under open and democratic laws that 
actually allow for them to have the resources and ability and 
freedom to organize and be there when and if there is a 
challenge between them and the Islamists.
    Mr. Cicilline. So the last two things I want to ask about 
are the status of preparations for parliamentary elections. 
Have voters been allowed to register? Are parties and 
candidates beginning to register? Is there any real indication 
that these elections will in fact be held this year?
    And then, secondly, what is the current status of press 
freedom in the country? We have heard a lot about the targeting 
of users of social media and bloggers, but are there any 
independent newspapers or TV channels that are operating? And 
are government-run papers and stations still engaged in this 
persistent kind of smear campaign against civil society and the 
United States?
    Ms. Okail. Well, the process has already begun in preparing 
for the elections before the constitutional court decision, and 
registration was underway and political parties were preparing 
for the elections.
    Right now, it is on pause waiting for the new electoral, 
which will actually affect the way those political parties will 
run and campaign for the elections. And it is very related to 
your second question about the press freedom, because this is 
very important, and it is the only channel that would reach the 
masses of the people when they campaign and present themselves 
to the Egyptians and their voters.
    Right now, the press is undergoing a lot of restrictions. 
As I mentioned earlier, there are the political restrictions 
that actually lead people to either censor themselves because 
of the intimidation and fear of the prosecution, but there is 
also the economic restriction because the new young and 
independent voices, they would have the talent and ability to 
voice their messages, but they don't have the platform or the 
economic ability to actually turn that into actual reality.
    Thank you.
    Mr Cicilline. Thank you.
    I thank the chair, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. It has been an 
interesting meeting here. I appreciate all the information that 
has come out. I have got a whole list of questions here.
    The first one is, what is the credibility of the U.S. and 
Egypt today versus, say, 10 or 15 years ago? Dr. Trager?
    Mr. Trager. Well, I mean, in terms of the popular 
perception in Egypt, the popular perception in the United 
States is significantly diminished because of this perception 
that the United States is interfering in Egypt's domestic 
politics. And I want to emphasize that that is not in any way 
my view.
    Mr. Yoho. I understand.
    Mr. Trager. But that is the perception, and it is another 
factor and the reason why it is so hard to influence this 
country's domestic politics.
    Mr. Yoho. Mr. Tadros?
    Mr. Tadros. I absolutely agree. The U.S. has no credibility 
at the moment with either side of the conflict in Egypt. The 
Muslim Brotherhood supporters believe that it is supporting the 
regime, and vice versa.
    Mr. Yoho. Dr. Okail?
    Ms. Okail. I agree. I mean, the credibility of the United 
States has usually been undermined throughout the 4 years of 
the--since the 2011 revolution. And I think, again, that is 
because that relationship remains a government-to-government 
relationship without actually transferring and conveying the 
message to the Egyptian people themselves and addressing their 
grievances.
    Mr. Yoho. Okay. And I talk to people from all over the 
Middle East when they come here, and I hear the same thing: The 
U.S. has lost its credibility, and the goodwill that we have 
generated over the last 200 years, it is gone.
    And let me ask you this. Should the U.S. have acknowledged 
the overthrow of Morsi as a coup? Because I know other nations 
have, and I think history will record it. And, if so, should we 
have responded in the way our laws say that no foreign aid goes 
to Egypt?
    And I bring this up strictly because we have lost our 
credibility. Our word doesn't mean anything. And if we are a 
nation of laws and we have these policies in place, if we don't 
stand by that and acknowledge that, people aren't going to take 
us seriously. And if we had it, it may have changed the outcome 
in Egypt. They may have thought differently.
    What is your opinion?
    Mr. Trager. Well, I think U.S. credibility doesn't rest on 
the terms that we use to refer to events in Egypt. It really 
hinges on our relationships, and that is really where I think 
the loss of credibility with the current Egyptian government 
is. That government asks, where does the United States stand? 
You know, and the type of hedging that Mr. Tadros referred to 
has undercut our credibility not only with the current 
government but with both sides. And that doesn't hinge so much 
on what we would have called Morsi's ouster.
    Mr. Yoho. Okay. Mr. Tadros, I want to ask you a separate 
question. Since Morsi was elected by the people democratically, 
would that have changed what we see today, if we would have 
announced that as a coup and say, ``We stand with a democratic 
process''? Because we are promoting democracy. And since he was 
democratically elected, should we have intervened and said, 
``You can't do that; that is a coup''? I mean, what is your 
opinion on that?
    Mr. Tadros. I don't think it--I don't believe it would have 
influenced the decision of the Egyptian military. The Egyptian 
people, there were mass protests in Egypt. People were fed up 
with the Muslim Brotherhood rule for a variety of reasons. And 
U.S. words would not have stopped the country's movement in 
that direction, no matter what the----
    Mr. Yoho. The Arab Spring would have happened anyway.
    Dr. Okail, I have a question for you. If Morsi has his 
death sentence carried out, what do you see happening in Egypt 
and the neighboring countries?
    Ms. Okail. Well, I don't believe they actually will execute 
the death sentence. However, of course there will be a lot of 
concerns. Just after the verdict on Saturday, there were 20 
terror attacks, and that is most likely in reaction to the 
verdict.
    Again, with the interconnectivity of the transnational 
connection between the groups, it may trigger further 
coordinated attacks, and have like dire effects in general. 
However, we are not sure how would that like fare out.
    Mr. Yoho. Okay. And then I want to build on Mr. 
Rohrabacher's and Mr. Webber's question about Russia's help in 
that region. I heard what you are saying from our perspective. 
What is the perspective in Egypt? What are they saying? Is 
Russia welcome there and looking at that, Dr. Trager?
    Mr. Trager. Well, you know, ahead of this kind of warming 
of relations with Russia, the Egyptian media started speaking 
very, very favorably of Russia, very favorably of Putin, and I 
think the popular view in Egypt is that Russia is an 
uncomplicated relationship because they could buy weapons from 
Russia and Russia won't worry about the democratic issues that 
we are rightly raising here today.
    There is one problem with that analysis within Egypt, which 
is that Russia isn't giving these weapons away for free. It is 
not offering the type of aid the United States is offering. But 
certainly in the short run Egypt is able to find other funds 
for buying Russian weapons, and they have shown that they can 
replace the United States, at least in the short-term 
withholdings.
    Mr. Yoho. All right. I have one more question, but I am out 
of time.
    Ms. Ros-Lehtinen. Go ahead.
    Mr. Yoho. Okay. Thank you, Madam Chair.
    Whoever wants to answer this. Is a democracy possible 
without property rights acknowledged by a government in the 
protection of human rights as we believe here, life, liberty, 
and the pursuit of happiness, you know, with, you know, freedom 
of religion, freedom of speech? Do you see that possible in a 
country where we keep trying to promote a democracy without 
that government acknowledging those rights?
    Ms. Okail. Well, at least the 30 years' rule of Mubarak 
proved that this is not possible, that----
    Mr. Yoho. I agree.
    Ms. Okail [continuing]. I mean, the whole--the entire 
assumptions upon which Mubarak was supported is that he is able 
to maintain stability, and the human rights violation and the 
closure of the political space could be overlooked for the sake 
of security and stability.
    But it was proven that after like three decades of strong 
rule he fell in only 18 days. So, I mean, nothing would be 
maintained. Security solutions are essential and important, but 
they are not sustainable without real structural changes.
    Mr. Yoho. I agree. Does anybody else----
    Mr. Tadros. Yes. If I may add, no, democracy cannot be 
sustained without property rights, without religious freedom, 
and this is why the United States should not only focus on the 
question of holding elections as important, and this is, but on 
building institutions----
    Mr. Yoho. Exactly.
    Mr. Tadros [continuing]. The rule of law, property, 
economic freedom, and others.
    Mr. Yoho. Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Ms. Frankel.
    Ms. Frankel. Thank you, Madam Chair. This is a very 
interesting discussion, and I have thought of--I have taken 
both sides of these issues so many times. But it just seems to 
me that the Arab Spring has turned into a very, very cold 
winter all over the world. And I think it is quite obvious that 
you cannot snap you fingers and get democracy and freedom and 
end repression.
    And as much as that is our values here, and we would like 
to see that happen, what it sounds to me like what is happening 
is that we have a--you can just tell from all the questions 
here there is this conflict between whether or not it is--is it 
security versus democracy?
    So a couple questions. First of all, can you say, what do 
you think is in our sphere of influence? And what is not? And 
where should our priorities be? Should it be the security of 
the region? I mean, what--maybe you could mention--this is an 
elementary question, but why is it important, or do you think 
it is important that Egypt be stable? And should we maybe 
sacrifice or turn our head on what are obvious human right 
abuses in order to have security?
    And I would like to know, if you have time, whether you 
think there is a threat of ISIL or any other terrorist 
situation coming into Egypt.
    And, finally, Madam Chair, I know I am--so if there is 
time----
    Ms. Ros-Lehtinen. No problem.
    Ms. Frankel [continuing]. Whether this coup law, I will 
call it the coup law, needs to be changed, because it just 
seems to me that we are just playing with words or having to 
play with words in defining what happened in Egypt when al-Sisi 
took over.
    Mr. Trager. Well, just in terms of what is and is not in 
our sphere of influence, you know, my view is that the role of 
foreign policy is primarily to shape the way states behave 
externally, and that it is often difficult to shape the way 
states behave internally, and that is certainly the case in the 
current situation in Egypt where you have the government and 
the Muslim Brotherhood locked in a ``kill or be killed'' 
struggle, one that the current government is winning but one 
that is likely to continue in some shape or form for a while.
    And we can influence Egypt's external relations if we 
reinforce the military-to-military relationship, if Congress 
urges the administration to move forward with a strategic 
dialogue with the Egyptian government, and there are many areas 
in which Cairo and Washington can better coordinate, for 
example, in Libya.
    The administration and Cairo are on very different pages 
there. Egypt has been, you know, the target of attacks that we 
believe emanate from the instability in Libya. It has 
responded, reportedly, by launching airstrikes in coordination 
with the UAE and was criticized by the administration for that, 
which doesn't really help the relationship because from Egypt's 
perspective they are attacking imminent threat.
    So we need to better coordinate our policy on Libya. And, 
frankly, we could be doing a lot to help bolster Egypt's 
counterterrorism in the Sinai. That also requires the Egyptian 
government approving that. They have been a little bit 
resistant to that as the relationship has fallen on difficult 
times. But I think by reinvigorating the relationship we might 
be able to get on the same page there as well.
    Mr. Tadros. I would slightly disagree. I think our sphere 
of influence of the United States is not only limited to 
foreign affairs but also to domestic ones, as long as those 
areas are not life-threatening to President Sisi or the regime.
    The United States in the past has helped Soviet Jews. 
Despite that being a domestic affair in the Soviet Union, it 
was able to influence the fate of those people because it was 
not a life-threatening issue. In those areas where the regime 
claims or proclaims its willingness to work on them, such as 
religious freedom, we should hold it to task and ask it to take 
meaningful steps and not just symbolic gestures.
    President Sisi should be encouraged to pass a law to allow 
the building of churches in Egypt. That is not something that 
threatens the stability of the country as a whole.
    In terms of the ISIS threat, I think on the long run the 
threat from the Sinai is likely to be contained. The more 
alarming threat would be the growth of or the spread of 
violence from Libya in Egypt. The western desert is the area 
that voted most heavily for an Islamist candidate in all 
successive elections. It is 1,000 kilometers of borders with 
Libya, free flow of weapons from there, tribal ties to the 
tribes of Libya, there are many elements there that would make 
potential insurgency there much more threatening than the 
Sinai.
    Ms. Frankel. Can Dr. Okail answer, Madam Chair?
    Ms. Ros-Lehtinen. No problem.
    Ms. Okail. There is certainly a threat from ISIL to Egypt. 
And as I mentioned in my testimony, there is already one terror 
group. Ansar Bayt al-Maqdis have declared their loyalty to 
ISIS, and they got the blessing from their leader.
    At the same time, there are several Egyptians who travel to 
Iraq, Syria, and Libya to fight there. Some of them come back 
home. We don't have actual numbers and information about how 
many there are, but they are definitely a real and existential 
threat to the security in the country.
    As for your question concerning the support for human 
rights and whether we can forego that for security, I don't 
think that they are mutually exclusive. I think they complement 
each other.
    And with regards to your related questions about what is in 
this sphere of the United States, the United States is already 
providing the needed support for--in terms of the military 
assistance. However, there is so much that can be done, 
particularly with regards to education reform, health support, 
rule of law, because so far most of the relationship and the 
policies targets--not just from the United States, but foreign 
policy in general, is having a very short-term view.
    When we look at the region, when you look at Egypt in 
particular, out of the 90 million people, a huge percentage of 
this are youth under 25 years old. These are the ones that we 
would like to invest in, so that we would not be faced in a 
situation where in the next elections people will be told that 
if they vote for a particular party they will be voting for 
God, and people would buy into that and support that.
    So we would like to avoid a situation of short-term 
policies and have long-term vision and investment in the actual 
people who will be shaping the future of the country.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Thank you, Ms. Frankel.
    Mr. Boyle.
    Mr. Boyle. Thank you. And, first, I just want to say 
specifically to Dr. Okail, as one of the 43 NGO workers who 
physically was captured and jailed for the work that you were 
doing, I just great admire and deeply respect your work and the 
sacrifices that you yourself made.
    My question is something regarding very specific and very 
recent. I was very concerned with not just Morsi but over 100 
now being sentenced from the political opposition to death, to 
execution. And while certainly no fan whatsoever of the Muslim 
Brotherhood or of Morsi, my question is, a) what is the 
timeline--what does the timeline seem like in terms of the 
executions? Particularly with Morsi.
    And then, number two, to what extent could this have a 
destabilizing effect? Because you only need to look at other 
historical examples of executions end up triggering a response 
in the population that ends up having a destabilizing effect. 
So those two questions.
    Ms. Okail. Thank you so much for your kind words. I really 
appreciate it.
    Concerning the executions, we would like--I would like to 
put this into the broader context. These are not the first 
death sentence that were issued. There were hundreds before, 
and for a variety of factions and people. And there are 
thousands of people who are in prison.
    Whether these sentences will be actually implemented and 
executed or not, this is remaining to be seen. Highly likely 
they will not be. However, actually, this is another concerning 
point because the fact that there are verdicts that are being 
issued, and people have the knowledge and the acknowledgement 
that they will not be executed, this is an undermining of the 
rule of law as itself as a tool for justice, and turning it 
from a tool to justice into a tool for intimidation, which will 
actually harm the future of the Egyptian sphere of political 
development, social, and economic justice that people would 
like to see and having the law performing its role, and rather 
become highly politicized and highly--and more increasingly 
used as a tool of intimidation rather than a tool for justice.
    Thank you.
    Mr. Tadros. I believe from the Egyptian government's time 
or point of view they believe that passing those death 
sentences against such symbolic figures as President Morsi, as 
the former--or the leader of the Brotherhood, General Guide 
Badie, and others, they are sending a message that there are no 
red lines, that previous Egyptian governments had shied away 
from arresting people like the General Guide, that even Nasser, 
in his repression, did not hang the General Guide.
    The message from the government is that we are in this 
until the end. We are willing to take all necessary steps. And 
from their point of view, they believe that this might 
discourage some people from taking up arms and violence now 
that they realize that there are no red lines completely.
    Mr. Trager. I agree with what has been said. I would just 
add that we also have to understand the death sentence is in 
terms of the ongoing power struggle, specifically in this case 
between the judiciary and the Muslim Brotherhood. That goes 
back almost 2 years, actually almost 3 years, excuse me, and 
so, I mean, I think the sentences, you know, pertain to that, 
which is not in any way a justification, just reinforcing that 
this is an ongoing power struggle within the country that is 
very, very hard to shape from 6,000 miles away.
    Mr. Boyle. And I would just conclude with this--and thank 
you, Madam Chair--it would be ironic if, after all of this and 
a so-called Arab Spring and all of this tumult, what ends up 
emerging in Egypt is a fairly pro-Western, autocratic leader 
that isn't very fond of the rule of law or human rights. Sounds 
a lot like a guy named Mubarak that was in power for three 
decades. It would be a bitter irony if, after all of this, that 
is what essentially we are left with.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Boyle.
    Thank you. And we certainly view Egypt as a strong and 
important ally, and striking that balance between security and 
democratic reforms, we hope they find that sweet spot.
    Thank you so much. Subcommittee is adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]      
         
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
